No.

IN THE SUPREME COURT OF THE UNITED STATES
Robert R. Snyder, Petitioner in Pro Se

ON PETITION FOR WRIT OF CERTIORARI
TO THE CALIFORNIA SUPREME COURT

CERTIFICATE OF SERVICE
I, Mary E. Guerrero Snyder, certify that on September 22, 2020, 4 copies
of a petition for Writ of Certiorari, were deposited with USPS, in Arcadia,
California postage prepaid, to the following parties:
Supreme Court of California,
350 McAllister St., Rm. 1295,
San Francisco, CA 94102

Office of CA Attorney General
600 West Broadway St. Ste., 1800
San Diego, CA 92101

Court of Appeal, 4th Appellate
Dist., Div. One
Symphony Towers
750 ‘B’ Street, Ste. 300
San Diego, CA 92101

Superior Court of California
County of San Diego, Central Div.
1100 Union Street
San Diego, CA 92102

I further certify to the best of my knowledge, all parties requiring to be served, have
been served.
Dated: September 22, 2020
Mary®. Guerrero Snyder,1^
Mother of Petitioner, in Pro Se

